     CONTRACTS FOR PROFESSIONAL, ADMINISTRATIVE,
         AND MANAGEMENT SUPPORT SERVICES


Report No. D-2000-100               March 10, 2000



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932 or visit the Inspector
  General, DoD Home Page at: www.dodig.osd.mil.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
AFB                   Air Force Base
DCAA                  Defense Contract Audit Agency
DFAS                  Defense Finance and Accounting Service
DISA                  Defense Information Systems Agency
FAR                   Federal Acquisition Regulation
                       Office of the Inspector General, DoD
Report No. D-2000-100                                                   March 10, 2000
  (Project No. 9CF-0073)

      Contracts for Professional, Administrative, and Management
                            Support Services

                                Executive Summary

Introduction. The audit was initiated because of problems recently identified by
previous audits and the increasing significance of contracts for services in the DoD.

From 1992 through 1999, DoD procurement of services increased from $39.9 billion to
$51.8 billion. Procurement of goods during that same time period decreased from
$59.8 billion to $53.5 billion. The largest sub-category of contracts for services was
for professional, administrative, and management support services, valued at $10.3
billion. Spending in this sub-category increased 54 percent between 1992 and 1999.
Our review from this sub-category of 46 contracts valued at $6.6 billion and 59 task
orders (105 actions) valued at $142 million included anticipated services of more than
104 million labor hours, which equate to 50,230 staff years.

Objectives. The primary objective was to evaluate procurement procedures for
professional, administrative, and management support services. We also evaluated the
management control programs as they applied to the objective. See Appendix A for a
discussion of the audit process and Appendix B for prior coverage related to the audit
objective.

Results. The 15 contracting activities and program offices requesting the contracts for
services did not adequately manage the award and administration of the 105 contracting
actions. Every contract action had one or more of the following problems:

     •   non-use of prior history to define requirements (58 of 84 or 69 percent),
     •   inadequate Government cost estimates (81 of 105 or 77 percent),
     •   cursory technical reviews (60 of 105 or 57 percent),
     •   inadequate competition (63 of 105 or 60 percent),
     •   failure to award multiple-award contracts (7 of 38 or 18 percent),
     •   inadequate price negotiation memorandums (71 of 105 or 68 percent),
     •   inadequate contract surveillance (56 of 84 or 67 percent), and
     •   lack of cost control (21 of 84 or 25 percent).

As a result, cost-type contracts that placed a higher risk on the Government continued
without question for the same services for inordinate lengths of time—39 years in one
extreme case—and there were no performance measures in use to judge efficiency and
effectiveness of the services rendered. DoD procurement system controls had material
weaknesses. See Appendix A for details of the review of the management control
program.

Summary of Recommendations. We recommend that the Deputy Under Secretary of
Defense (Acquisition Reform) develop training on planning and defining requirements
for contracts for professional, administrative, and management support services; train
contracting and program personnel in the award and administration of contracts for
these services; and emphasize, in that training, the need to avoid the kinds of
deficiencies noted in this report.

We recommend that Senior Acquisition Executives for the Army, Navy, and Air Force
establish centers of excellence with trained and experienced personnel that can be used
by acquisition personnel when procuring services, make all acquisition personnel aware
of the problems identified in this report, and develop a time-phased plan with goals and
performance measures to determine improvements in the acquisition of professional,
administrative, and management support services. We also recommend converting
repetitive, cost-reimbursable contracts or portions of contracts, to fixed-price; and
converting contracts for services that exceed the statutory requirements to
multiple-award contracts.

Management Comments. The Deputy Under Secretary of Defense (Acquisition
Reform), and the Senior Acquisition Executive for the Air Force did not respond to the
draft report issued on February 4, 2000. The Army concurred and stated that a number
of improvements must be made in the award and administration of professional,
administrative, and management support services. Furthermore, the Army notified its
contracting offices of the problems identified in the report. The Navy concurred with
the finding and most of the recommendations. Specifically, the Navy stated that it
provided copies of the draft audit report to its contracting activities and would publicize
the centers of excellence and encourage members of the Navy acquisition community to
use them. The Navy also stated that it would evaluate its contracts and where
appropriate, convert them to multiple-award contracts. Also, the Navy stated that work
measures and guidance should be developed at the DoD level.

Audit Response. Although the Army concurred, it did not comment on each specific
recommendation. The Navy also agreed with the report and provided detailed
comments for all recommendations except three. The Navy did not specifically address
recommendations to establish its own performance goals and measurements; to convert
contracts, or parts of contracts to fixed-price over a 3 to 5 year period; and to review
the assignment of contract surveillance work for contracts for services and adjust
workload levels.

We request the Under Secretary of Defense (Acquisition Reform), and the Air Force
provide comments to the final report. We also request that the Army and Navy Senior
Acquisition Executives provide specific comments to each applicable recommendation.
All comments should be provided by May 10, 2000.



                                            ii
Table of Contents

Executive Summary                                                               i


Introduction
     Background and Scope                                                       1
     Objectives                                                                 3

Finding
     Award and Administration of Contracts for Professional, Administrative,
       and Management Support Services                                          4

Appendixes
     A. Audit Process
          Scope and Methodology                                                20
          Management Control Program                                           21
     B. Prior Coverage                                                         22
     C. Summary of Acquisition and Administration Problems                     23
     D. Report Distribution                                                    27

Management Comments
     Department of the Army Comments                                           29
     Department of the Navy Comments                                           34
Background and Scope
    The audit was initiated because of the increasing significance of contracts for
    services and recent issues identified by Defense Inspector General audits. DoD
    obtains services from 23 Federal Supply Groups.

    Recent Trends. Recent trends show that DoD spending for services was near
    the spending for supplies. The DoD spent $51.8 billion buying services in
    1999. The largest Federal Supply Group for services is Professional,
    Administrative, and Management Support Services (Federal Supply Group Code
    R). To provide a perspective on the significance of professional, administrative,
    and management support services; DoD contracted for $10.3 billion in the
    largest Federal Supply Group, compared to only $7.8 billion contracted for
    fixed-wing aircraft contracts and about $5.8 billion for maintenance and repair
    contracts in 1999. Spending for professional, administrative, and management
    support services has increased about 54 percent since 1992. Figure 1 compares
    DoD spending for goods and services from 1992 through 1999. Figure 2 shows
    the increase in spending for professional, administrative, and management
    support services from 1992-1999.

                           70                                                                 12
                           60              Goods                                              10   54 Percent Increase
                                                                      Billions o f Dollar s
     Billions of Dollars




                           50
                                                                                              8
                           40
                                           Services                                           6
                           30
                                                                                              4
                           20
                                                                                              2
                           10
                            0                                                                 0
                            1992 1993 1994 1995 1996 1997 1998 1999                           1992 1993 1994 1995 1996 1997 1998 1999


     Figure 1. DoD Spending for Goods and Services Figure 2. Increase in Spending for professional,
                        1992-1998                  administrative, and management support services
                                                                         1992-1999


    Our universe was limited to professional, administrative, and management
    support services. From these services we analyzed large dollar actions related
    to three service categories that included high ratios of cost-type actions. Table 1
    compares the dollar amount spent in these three categories during 1997 and
    1998.




                                                              1
                Table 1. Universe of Contract Actions

     Categories of Services
        • Program Management/Support Services                 (R-408)
        • Systems Engineering Services                        (R-414)
        • Engineering Technical Services                      (R-425)
     Categories of Contracts
        • Fixed-Price                 3,701 actions           $ 2,078,049,107
        • Cost-Reimbursable          21,455 actions           $ 8,520,152,565
             Total                   25,156 actions           $10,598,201,672
     Occurrence of Competition
        • Occurred             18,926 actions                 $ 6,649,804,239
        • Did not occur         3,588 actions                 $ 2,985,088,899
        • Other*                 2,642 actions                $ 963,308,534
           Total               25,156 actions                 $10,598,201,672

        *were either follow-on actions or not eligible for competition



Related Audits. Inspector General, DoD, Report No. D-2000-088, “DoD
Acquisition Workforce Reduction Trends and Impacts,” “Audit of
Time-and-Materials Contracts at the Defense Information Systems Agency
(DISA),” Report No. 96-032; “Contracting for Defense Finance and Accounting
Service (DFAS),” Report No. 99-002; and the “Audit of DoD Use of Multiple
Award Task Order Contracts,” Report No. 99-116; discussed problems with
contracts for services. The DoD Acquisition Workforce Reduction Trends and
Impacts audit determined that DoD reduced its acquisition workforce from
460,516 to 230,556 personnel, about 50 percent, from the end of FY 1990 to
the end of FY 1999; however, the workload had not been reduced
proportionately. The audit at DISA determined that several contracts for
services were improperly awarded, routine contract administration functions
were not performed, and sufficient surveillance of the contractor was not
performed. In some cases, we identified questionable deliverables and benefits
from the contract actions. The audit at DFAS determined that program officials
improperly planned and managed contracts for services. The multiple-award
audit identified noncompliances in contracts for services and determined that
contractors were not provided a “fair opportunity to be considered.” Findings
in those audits were a factor in the decision to review this area in more depth
with this audit. In addition, a small sampling of DoD intelligence community
services contracts are being audited separately.

Commercial Business Environment Report. On November 23, 1999, the
Under Secretary of Defense for Acquisition, Technology, and Logistics directed
the Deputy Under Secretary of Defense (Acquisition Reform) to take immediate

                                         2
     action on the key recommendations of the Section 912 (c) Commercial Business
     Environment Report. The report recommended implementing a strategy for
     adopting commercial business practices to achieve the “Revolution in Business
     Affairs.” Two of the recommendations requiring immediate action were:

                 • the establishment of a Change Management Center (CMC) to
                   take the lead in accelerating acquisition and logistics reform
                   initiatives, and

                 •    the use of the CMC to assist the Defense Acquisition University
                     in using a corporate approach to providing education and
                     training for the acquisition, technology, and logistics workforce.

     On December 23, 1999, the CMC was established. In addition to the existing
     DoD education and training infrastructure, the Commercial Business
     Environment study group initiated two education pilot programs. The first is an
     online course titled “Integrating Commercial Practices with Government
     Business Practices, Program I: Managing Suppliers.” The second is a
     traditional classroom course titled “Competing in a New Business Environment:
     A Program for Defense Acquisition Executives.”

Objectives
     The primary objective was to evaluate procurement procedures for professional,
     administrative, and management support services. We also evaluated the
     management control programs as they applied to the objective. See Appendix A
     for a discussion of the audit process and Appendix B for prior coverage related
     to the audit objective.




                                         3
           Award and Administration of Contracts
           for Professional, Administrative, and
           Management Support Services
           Contracting activities and supported program offices did not adequately
           contract and manage 105 contract actions for services. Every contract
           action in the audit sample had one or more of the following problems:

                •   non-use of prior history to define requirements (58 of 84 or
                    69 percent),

                •   inadequate Government cost estimates (81 of 105 or 77
                    percent),

                •   cursory technical reviews (60 of 105 or 57 percent),

                •   inadequate competition (63 of 105 or 60 percent),

                •   failure to award multiple-award contracts (7 of 38 or 18
                    percent),

                •   inadequate price negotiation memorandums (71 of 105 or 68
                    percent),

                •   inadequate contract surveillance (56 of 84 or 67 percent),
                    and

                •   lack of cost control (21 of 84 or 25 percent).

           This occurred because acquisition officials lacked training, familiarity,
           and time to fulfill their duties. As a result, cost-type contracts that
           placed a higher risk on the Government continued for the same services
           for inordinate timespans, and there were no performance measures to
           judge efficiency and effectiveness of the services rendered.

Background and Scope of Contracts for Services
    Our sample consisted of 105 contract actions consisting of 46 contracts valued at
    $6.6 billion and 59 task orders valued at $142 million. The contract actions
    were for FY 1997 and FY 1998, and included 21 fixed-price actions and 84
    cost-reimbursable actions. We examined basic contracts, deliverables,
    statements of work, negotiation memorandums, independent Government cost
    estimates, technical evaluations, source selection decisions, cost analyses, and
    miscellaneous correspondence. We interviewed contract and program personnel
    at 15 audit sites.

    The services on the 46 contracts and 59 actions reviewed included anticipated
    labor of over 104 million hours. This is equivalent to 50,230 full-time positions
                                        4
    for one year and represents only a portion of the services being purchased.
    Many of the tasks being performed on these contracts were for services
    previously performed by Government employees for which DoD no longer had
    in-house capabilities.

    Functions now being contracted out include preparing strategic plans,
    participating in the preparation of acquisition plans, source selection plans and
    other pre-proposal source selection documentation, and performing contract
    administration and quality assurance on other contractors’ operations.

Defining Requirements
    The Federal Acquisition Regulation (FAR) Part 37 holds program officials
    responsible for accurately describing requirements before contracting for
    services. The specific need or problems to be resolved must be defined in a
    manner that ensures full understanding and responsive performance by
    contractors. Part 37 also requires agencies to use performance-based
    contracting methods to the maximum extent practicable for the acquisition of
    services. However, in the contracts we reviewed, defined work statements were
    the exception rather than the rule. Statements of work stipulated services on an
    as-needed basis and included “support for functions and programs” when there
    was no idea of what the actual needs might be. Program offices did not use
    performance measures to develop their service requirements or measure the
    effectiveness and efficiency of performance for any of the contract actions
    reviewed. The lack of defined statements of work was troubling on basic
    contracts, but even more so on task orders that were supposed to be the more
    precise work segments covered by the overall contract. Task orders described
    work in the same general terms to include support for programs and functions.
    It was often impossible to determine how the work scope on one task differed
    from the work scope on another task. Under Contract N68936-97-D-0297, the
    contracting official simply restated portions of the overall contract statement of
    work in task order number 1. Program officials expressed their requirements in
    terms of “quality of service received” rather than “achievement of a specific
    objective.” For example, documentation relating to sole-source Contract
    N00024-97-C-5173, valued at $183 million, stated:
               The Program Office decision was to obtain more deliverable man-
               hours in lieu of reducing the cost and fee of the contract. This
               resulted in an increase of 8,745 man-hours …

    The Air Force sole-source action when using Army Contract
    DAAB07-96-C-A760 was to use all of the money available instead of realizing a
    savings. When Army contracting officials could only identify $5,792,397 of
    fixed-price costs against $8 million in funding, the Air Force program office
    instructed the contracting office to:
               Expend all of the funding available/provided for the basic FFS efforts,
               therefore, the Army shall increase the T&M effort by any difference
               between total funding provided and firm fixed priced efforts realized
               through negotiations.

                                             5
In this case, the contracting specialist admitted the time-and-materials service
portion of the contract was a “plug-in” figure. There was nothing in the file to
show rates, hours or even labor categories.

On several occasions a National Guard Bureau procurement analyst expressed
concerns related to the identification of requirements under Contract
DAHA90-94-D-0016, a competitive fixed-price contract with an estimated value
of $13.3 million. She stated:
           Are we getting what we want or are we accepting the contractor's
           proposal based on the fact that it is lower than the estimate? Suggest
           that the activity do a thorough analysis of what the requirement really
           is and based on past years how long it will take to accomplish the
           mission required.

           There is difficulty in just accepting the contractor's proposal without
           discussion as to the number of hours. The hours for the Assistant
           Project Leader were approximately 2½ times the government
           estimate. Either the Government estimate is totally off or the
           contractor's proposal is.

The following figure shows how a lack of defined requirements had a
trickle-down effect on pre-award and post-award actions.




                                        Undefined
                                    Requirements/Costs



                       Inability To                   Inability To Award
                     Adequately Price                   Firm Contracts



                   More Time Consuming               More Labor-Intensive
                    Pre-Award Effort                  Post-Award Effort




          Figure 3. Effects of Not Initially Defining Requirements




                                         6
     The Military Departments and the Defense Supply Service – Washington need to
     develop and implement work measures on contracts for professional,
     administrative, and management support services; and measure improvements.

Issues Identified
     The audit identified problems in each of the 105 contract actions examined.
     These problems covered every phase of purchasing services and consisted of
     non-use of prior history to define requirements, inadequate Government
     estimates, cursory technical reviews, inadequate competition, failure to award
     multiple-award contracts, inadequate price negotiation memorandums,
     inadequate surveillance, and lack of cost control. Each of the contract actions
     included at least one of these problems but most exhibited several problems.
     Appendix C includes a detailed list of the specific problems identified. The
     following table summarizes the problems identified during the audit.

      Table 2. Summary of Problems Related To Contracts for Professional,
               Administrative, and Management Support Services

   Problem Areas                                         Number of         Percent
                                                         Occurrences/
                                                         Universe

            Pre-Award Problems

   Non-use of Prior History to Define Requirements       58/84             69
   Inadequate Government Cost Estimates                  81/105            77
   Cursory Technical Reviews                             60/105            57
   Inadequate Competition                                63/105            60
   Failure to Award Multiple-Award Contracts              7/38             18
   Inadequate Price Negotiation Memorandums              71/105            68
             Post-Award Problems
   Inadequate Contract Surveillance                      56/84             67
   Lack of Cost Control                                  21/84             25


Pre-award Actions
     Non-Use of Prior History to Define Requirements. In addition to leaving
     services requirements undefined, contracting officials did not use available
     history from prior contracts to help define costs and reduce risk by awarding
     firm-fixed-price contracts. In 58 of 84 contracts that had prior experience, there

                                         7
was no evidence in the contracting files that contracting officials considered this
experience when deciding on contract type. Two of these contracts involved a
single contractor that had been performing the same service under stable
conditions for many years (as much as 39 years).

For example, in 1997, Army contracting officials determined that a
cost-plus-fixed-fee contract was the most suitable type contract because the
uncertainties involved in contract performance did not permit costs to be
definitively determined in advance—although it had 39 years of history with this
same contractor. The Army issued sole-source Contract DAAH01-97-C-0002,
valued at $36.2 million, to Raytheon Corporation for engineering services
related to the HAWK missile system. Documentation in the contract files stated
that engineering services for this missile system had been obtained from this
same contractor since the inception of the missile system, initially fielded by the
Army in 1958. The documentation defined technical, cost, and schedule risks as
low, since these were follow-on requirements.

In another example, documentation in a Navy contract identified existence of 25
years of historical information, which could have been used to fix-price at least
a portion of sole-source Contract N00024-94-C-6429, valued at $73.4 million.
Nevertheless, the contract was awarded as cost-plus-fixed-fee. The
documentation stated:
           In addition to being the incumbent for the current PMS425 Consulting
           Services (CS) contract, EG&G has provided continuous support to
           PMS425 programs for every functional area of the SOW (except
           Safety) since 1969. EG&G provides comprehensive experience across
           all programs and functional areas. There were no major deficiencies
           identified.

However, other documentation in the contract files described contracting
officials’ justification for the use of a cost-plus-fixed-fee contract by stating:
           The cost of performing the work under the proposed contract could
           not be accurately forecasted so as to permit the undertaking of such
           work for a fixed price. The intent was to utilize the same contract
           type as the original effort.

This rationale was not convincing with 25 years of historical data. The
contracting officials should have been able to identify at least portions of the
current requirement that could have been fixed-price. Not only was no attempt
made to consider historical information, the decision was made to use the same
contract type as the original effort.

On the other hand, three program offices used innovative techniques and prior
experience to develop more precise requirements and fix-price portions of their
contracts. In cases in which historical data did not initially exist, cost-type task
orders were used, and later converted to fixed-price task orders once cost data
was available. For example, Air Force contracting personnel at Hill Air Force
Base (AFB) used historical data to fix-price a portion of sole-source Contract
F42620-97-D-0010, an engineering and technical contract for services valued at

                                        8
$823 million, awarded for post-production support for the F-16 fighter aircraft.
Contracting officials also included steps to fix-price orders initially awarded as
time-and-materials after actual cost data became available. Documentation in
the files stated:
           Our original strategy, approved in both the Acquisition Strategy Panel
           and the Class Justification and Approval for sole source contracts
           included a Fixed Price Award Fee Core Support effort for both
           contractors. We also anticipated various other contract-type CLINs
           for the non-Core Support and other efforts. Cost Plus contracting was
           also considered but was determined to be inappropriate since the
           companies had both demonstrated more than 15 years of satisfactory
           performance on similar efforts. Much of the effort can be quantified
           and Cost Plus contracting places maximum risk on the Government.

Air Force contracting officials at Tinker AFB used historical data and
fixed-price a part of Contract F34601-95-C-0538, a competitive contract valued
at $196 million for logistics support for the C-20 aircraft, after determining
technical risk to be low. U.S. Army Corps of Engineers contracting officials at
Huntsville, Alabama, also identified costs that could be fixed-price when
awarding Contract DACA87-97-D-0029, an operation and maintenance
multiple-award contract valued at $26.5 million.

Although the types of services differed in these contracts, we believe the three
positive examples demonstrated that innovation and effort on the front end of the
contracting process would be beneficial on a variety of contracts for services,
and training would allow contracts to be priced on a fixed-price basis. This
effective planning and effort on the front end of the contract allowed for better
data to price the contracts, and reduced the burdensome and labor-intensive
surveillance requirements during the term of the contracts. We believe a
tracking system of cost-type contracts should be developed that would aid in the
use of historical data to convert contracts to fixed-price. Management also
should establish goals for increasing the use of fixed-price contracts.
Since requirements were not precisely defined, cost considerations in contract
awards were problematic and the importance of independent cost estimates,
technical evaluations, source considerations, and price negotiation
memorandums was magnified. However, in 97 of 105 contract actions, these
documents lacked detail and contained errors. In addition, personnel turnover
resulted in the work often being shifted to staff that were unfamiliar with the
awards. Inexperienced and unqualified staff performed both program and
contracting officer functions in one case.

Inadequate Government Cost Estimates. The development of accurate
independent cost estimates took on a greater significance for award decisions
with very broadly scoped contracts and cost-type contracts that placed a higher
risk on the Government. However, in 81 of 105 contract actions, contracting
officers either failed to prepare estimates or developed estimates that were
inadequate or lacked detail. Deficiencies in estimating clearly left the
Government vulnerable—and sometimes at the mercy of the contractor to define
the cost.

                                        9
Cost estimates that were prepared were often unsigned, undated, and included
no explanations supporting the estimate, even when these estimates included
hundreds of thousands of dollars of material costs. Documentation in the files
referred to “historical data,” but provided no depth or detail to explain what
this data was or what it meant. Even when cost estimates approximated the
amounts in contractors’ proposals, little assurance of reasonable price was
obtained when requirements were not adequately established. A National Guard
Bureau cost estimate of $2,158,854 for task order number 17 under competitive
Contract DAHA90-94-D-0016 was close to the contractor task order proposal of
$2,117,268. Yet a subsequent Defense Contract Audit Agency (DCAA) review
determined actual costs were only $1,190,010. A cost estimate of $2,005,762
for task order number 18 of the same contract was close to the contractor
proposal of $1,930,496; however, the same DCAA review determined actual
costs of only $986,549. Proper documentation of cost estimates is an essential
management control.

The Army, Navy, and Air Force need to ensure that contract files include
signed and dated independent Government cost estimates along with all relevant
documentation supporting the estimate.

Cursory Technical Reviews. Technical evaluations were also essential to the
acquisition process because contracting officials lacked knowledge of the
specific functional areas or programs and relied heavily on technical assessments
prepared by program offices to reach determinations on cost reasonableness.
Yet, technical reviews lacked specific detail or were not prepared for 60 of 105
contract actions. For example, when prepared, evaluations under competitive
Contract DAAB07-98-D-H751, valued at $141 million, were cursory and
included a short statement that labor mixes, labor rates, materials, and
subcontract costs were acceptable, but offered no further explanation even when
materials or subcontracts were valued in the hundreds of thousands of dollars.
In these cases, the technical evaluator prepared pro-forma technical evaluations
that consisted of the same wording and the only change was the dollar amount
reviewed. Also, another evaluation was hastily prepared and included a few
hand-scribbled notes. In one case, the evaluator did not even bother to remove
the wording related to materials and subcontracts when these costs were not
proposed.

Contracting officials’ imposition of unrealistic deadlines contributed to these
problems and forced hasty technical assessments. Under sole-source Contract
F41608-96-D-1044, valued at $9 million, an evaluator had less than a day from
the time they received the contractor proposal until the evaluation was due back
to the contracting staff. We recommend that the Army, Navy, and Air Force
ensure that contract files include signed and dated technical evaluations, when
required, along with data used to support cost reasonableness and other
statements about the acceptability of costs.

Inadequate Competition. Competition would also have provided an
opportunity for contractors to help define costs under uncertain requirements.
Yet, inadequate competition occurred for 63 of the 105 contract actions.
Contracting offices did not allow contractors fair consideration for award in 58
of 63 multiple-award task orders examined, and used faulty justifications for the
                                   10
sole-source actions on the remaining five non-multiple-award actions examined.
Instead of competing task orders among multiple-award contractors, contracting
officers selected preferred contractors. On Contract DAAB07-98-D-H751, a
contracting officer arbitrarily determined which contractor would get the award
for 12 task orders. Another contracting officer awarded 30 task orders under
Contracts DACA87-97-D-0029 and DACA87-97-D-0027 to specific contractors
as a result of requests from the program office, instead of competing them
among the other multiple-award contractors. The abuse of the FAR requirement
to give contractors a fair opportunity to be considered was worse than the
similar situation reported in DoD Use of Multiple Award Task Order Contracts
(Report 99-116).

Failure To Award Multiple-Award Contracts. In addition, contracting offices
did not always comply with the FAR criteria to use multiple-award contracts for
contract advisory and assistance services. The FAR requires the use of
multiple-award contracts for awards that exceed $10 million and 3 years. These
requirements in the FAR for multiple-award contracts were established in
section 2304b, title 10, United States Code. However, 7 competitive contracts
of 38 contracts reviewed were not issued as multiple-award contracts. The
following table identifies these contracts.

          Table 3. Contracts That Should Have Been Awarded as
                       Multiple-Award Contracts

            F34601-95-C-0538              $195,886,329

            N00024-97-C-6411              $106,567,354

            N00024-96-C-6409              $ 29,999,445

            N68936-98-D-0038              $ 48,416,923

            N00024-96-C-6301              $ 32,435,598

            N00024-95-C-6360              $ 12,848,428

            N00024-97-C-5182              $ 21,269,021



We recommend that the Army, Navy, and Air Force evaluate the seven
contracts that should have been awarded as multiple-award contracts and, if
feasible, terminate or convert them upon completion to multiple-award
contracts.

Inadequate Price Negotiation Memorandums. Contracting officers developed
inadequate price negotiation memorandums for 71 0f 105 contract actions,
which left many unanswered questions related to the contract or task order
award. Negotiation memorandums we reviewed lacked detail or contained
errors. The negotiation memorandum for sole-source task order number 3,

                                   11
    valued at $225,000 under Contract F41608-96-D-1044, did not even address the
    fact that 97 percent of the costs had been incurred prior to the award of the task
    order. The acceptance of pre-contract costs was not addressed in the task order,
    and DoD may have paid for costs that it was not contractually bound to pay.
    Other negotiation memorandums contained incorrect statements and data, and
    did not describe why contractor-proposed cost had been accepted as submitted,
    and explained that the Government relied on the technical evaluation as the basis
    for accepting cost without identifying any of the documentation supporting the
    technical evaluation.


    Complete price negotiation memorandums are another essential internal control
    in DoD contracting. The Army, Navy, and Air Force need to ensure that price
    negotiation memorandums contain the level of detail required to justify the
    acceptance of contractor costs. Contracts for services were primarily labor
    related and labor pricing was usually developed at the time of basic contract
    award. However, large amounts of materials costs were added or included in
    these contracts for services without being adequately addressed.


    Materials and Other Direct Costs. Materials and other direct costs of
    $535 million were incurred under 22 of 46 contracts reviewed, however,
    contract files did not contain documentation supporting purchases of the
    equipment and materials or evidence that material costs had been reviewed and
    were reasonable. Contract actions included material costs when it was not
    readily apparent that the material was necessary for performance of the service.
    This was especially true when task orders were issued that consisted of more
    than 90 percent material with only a token number of service hours for
    administration.


    The Army purchased materials under task order number 23 of multiple-award
    Contract DAAB07-94-D-M503 that were outside the scope of the contract. The
    purpose of this non-competitive task order was to obtain assistance to manage its
    property control system. However, the contract was modified to purchase
    $413,598 worth of materials including $169,930 of office furniture with no
    explanation of why it was purchased and outside the scope of the task order.
    Under task order number 40 of the same contract, the Army paid 15 percent
    more than the contractor’s proposal with no explanation for paying the higher
    price. Under this task order the Army was entitled to 4 free laptop computers
    resulting from the purchase of large quantities. Instead of keeping these laptop
    computers the Army gave them to the contractor. The Military Departments
    need to evaluate the circumstances for including material costs on these
    contracts for services and determine if it was appropriate for their inclusion.

Post-Award Actions
    The lack of planned requirements and award of higher-risk contracts placed
    more emphasis on administration and required more personnel for surveillance.
    However, contracting offices did not perform adequate contract administration
                                        12
and surveillance. Instead of a coordinated surveillance program between
contracting and program offices, administration and surveillance were given low
priority and were lacking. Further, contracting positions were vacant and
contracting duties were not reassigned.

Inadequate Contract Surveillance. Inadequate surveillance was performed in
56 of 84 cost-reimbursable contract actions examined. Military Departments’
contracting officers’ representatives did not maintain up-to-date surveillance
folders, or prepare surveillance reports, and were unable to show that reviews
of contractors’ actual work was performed. Instead, contracting officers
essentially used contractor-prepared status reports as evidence of surveillance to
determine how well the contractor was performing.

During several interviews, Military Departments’ contracting officers’
representatives were unable to describe specific surveillance steps performed,
identify specific examples of problems identified during surveillance, or provide
any evidence that surveillance was performed. Some of the Military
Departments’ contracting officers’ representatives did not have copies of the
contract available or, in other instances, did not know the name of the
contracting officer.

Cost-Plus-Award-Fee Contracts. The lack of surveillance was especially
problematic on cost-plus-award-fee contracts since performance was the main
factor in award fee determination. Contracting organizations justified the
payment of award fees to contractors without measurable performance
parameters or actual surveillance for effectiveness and efficiency. One
contracting organization decided not to use a cost-plus-award-fee type contract
stating:
           The primary hindrance to the use of a CPAF contract for this effort is
           the use of judgmental evaluation criteria when the contractor is
           “teamed” with the government for the ultimate success of the
           deliverables…

However, other organizations using award fee contracts had no problem using
judgmental evaluation criteria. As a result, the payment of award fees to
contractors was highly subjective and unsupported. Contracting organizations
paid 100 percent award fees to contractors in 377 of 399 (94 percent) award
evaluations examined. The degree of documentation supporting the payment of
award fees varied, however, none of the documentation clearly supported the
payment of one award fee percentage over another award fee percentage. Award
ratings of 100 percent were granted even when no narrative was provided to
explain why the contractor’s performance was better than expected. The
contractor under competitive Contract N68936-98-D-0038, valued at $48.4
million, was guaranteed a 70 percent award fee for even minimally acceptable
work. An award fee-determining official approved a 100 percent fee under
competitive Contract F04611-92-C-0045, valued at $612.5 million, even after
the award fee board had only recommended a 94 percent fee. The award fee
determining official stated:



                                        13
           While the CSC’s overall performance was excellent during the
           reporting period, I will be looking for results on issues identified
           during this and previous cycles. (The Board’s concern over these
           issues led them to a 94 percent fee recommendation).

Based on this statement, the award fee determining official approved the full 100
percent award fee hoping that the contractor would correct deficiencies
identified during the current and past rating periods related to personnel
vacancies in key mission support areas, timely problem identification,
Government partnering, and problem correction. This re-emphasizes the issue
that without specific criteria, it is not possible to evaluate different levels of
performance.

Contracting Office Priority. Contracting organizations failed to reassign
contracts to new contracting officers and contracting specialists when vacancies
occurred. One Army contract examined had no contracting officer assigned to it
for the 6-month period prior to our audit visit. A National Guard Bureau
contract had no contract specialist currently assigned to it. Contracting officers
did not officially designate contracting officers’ representatives to perform
surveillance on contracts or reappoint contracting officers’ representatives when
vacancies occurred. Contracts were routinely reassigned to new contracting
officers who were unable to answer specific questions related to the contracts
stating that they had “inherited” the contract or had been assigned the contract
“by default.”

Lack of Cost Control. Contracting offices’ questionable use of
cost-reimbursable contracts (particularly cost-plus-fixed-fee, time-and-materials,
and cost-plus-award-fee) and the additional strain on personnel performing
surveillance functions offered little protection against cost escalation. For
example, 21 of 84 contract actions examined had cost growth of $80 million. In
addition to the increase of funds to exercise options and make administrative
corrections, contracting officials issued modifications to increase work, change
scope, add external purchases and increase funding of existing work. A DCAA
audit identified several problems in sole-source Contract DAAH01-97-C-0002,
valued at $36.2, for technical support and engineering services that can be
directly related to inadequate surveillance. The audit report stated:
           The contractor has not had a good record of meeting cost goals on
           certain cost type contracts. Our postaward, progress payment, and
           cost performance report reviews have disclosed instances of contract
           cost overruns…




                                       14
     Cost increases occurred in task orders as well as contracts. Task order number
     23, a non-competitive task order under multiple-award Contract
     DAAB07-94-D-M503, increased from $19,871 to $642,199 as a result of a
     change in scope and lack of control that allowed adding furniture and other
     material to the task.

Training, Familiarity, and Workload of Acquisition Staff
     DoD obtains a wide variety of services from contractors, which include program
     management support services, engineering technical services, systems
     engineering services, and operations and maintenance. The use of contracts for
     services has steadily increased. However, contracting organizations have not
     altered their training to include additional skills needed to award and administer
     contracts for services. Accordingly, we believe specialized training for
     contracts for services is necessary. Further problems beyond inadequate
     training were identified. For example, contracting actions change hands quickly
     as staff leave or are reassigned, and contracting personnel have become less
     familiar with contracts assigned to them and are overburdened with work.

     Training on Contracts for Services. None of the 25 contracting personnel
     interviewed had received training related specifically to contracts for services,
     let alone for professional, administrative, and management support services.
     We reviewed course catalogs from the Defense Systems Management College
     and the Defense Acquisition University to determine if courses existed related to
     contracts for services but found no such courses. The emphasis on “buying
     hours” together with contracting personnel’s failure to use prior history to
     develop less risky contracting strategies, dictates a need for better training.

     Basic Contract Training. Reviews of contracting files indicated that some
     contracting personnel lacked understanding of basic contracting procedures
     related to cost-type contracts. Documentation for task order number 1 valued at
     $1.3 million under sole-source Contract F41608-98-D-0566 showed that a
     contracting officer did not understand the Truth in Negotiations Act. In the
     price negotiation memorandum of a task order the contracting officer stated:
                Truth In Negotiations Act (TINA) threshold for mandatory cost and
                pricing data apply, however because this a Cost Plus Fixed Fee Task
                Order no cost and pricing data is needed at this time. Subject Order
                will be audited for TINA related errors by DCAA after contract
                completion.

     The decision to not obtain cost and pricing data when price was negotiated
     prevented the Government from receiving any reduction in fee because of
     defective pricing that might have occurred. Data obtained after contract
     completion would be useful but the contracting officer did not understand the
     requirement. Other contracting personnel mistakenly placed little emphasis on
     reasonableness of costs at the time of negotiations since contractors would only
     be paid actual costs. They did not realize that even though DoD only paid actual
     costs, the costs might still be too high.

                                            15
There is a clear need for better training on planning and defining requirements
for contracts for services, including specific training in the areas of the
development of independent Government cost estimates, technical evaluations,
and price negotiation memorandums.

Familiarity. Constant personnel turnover resulted in inexperienced and
uninformed contracting personnel awarding and administering contracts for
services. The effects of the continuous shuffling of personnel were evident
when an engineer was unable to break down contractor subtasks under
sole-source Contract F41608-98-D-0566, valued at $6.1 million. The
negotiation memorandum even indicated that this limited the Government ability
to analyze the contractor’s technical explanation and plans. As a result, the
Government had to rely solely on contractor-provided data to determine whether
the fee, hours, etc. were fair and reasonable. Transfer and downsizing resulted
in newly assigned staff being unable to answer basic questions about these
contracts.

In addition to contracting officer personnel, program office personnel were
unable to show evidence that they were qualified or possessed the skills to make
technical assessments on the adequacy of hours, labor mix, and other costs they
deemed acceptable and reasonable. This was especially important since often
this process was the responsibility of one individual working under tight
constraints. Personnel interviewed were unable to provide evidence that they
were knowledgeable of specific functions or had a background that allowed them
to assess these areas.

Contracting Personnel Workloads. Even when staff remained in place,
downsizing resulted in more work and higher demands on time. Typically,
Military Departments’ contracting officers’ representatives handled numerous
contracts and task orders in addition to other duties assigned. For example, a
program office technical monitor under Contract DAAH01-97-C-0002 stated
that he was responsible to perform surveillance on 43 contracts, valued at
approximately $621 million, which included this contract. However, he added
that most of his time was spent working on the upcoming award of 13 additional
contracts valued at approximately $115 million. In another example a service
technical monitor under Contract F08626-96-D-0003 described his assignment
to perform surveillance on 37 task orders in addition to his regular duties. With
the growth in contracts for services, the Military Departments need to review
the assignment of contract surveillance workload and make adjustments to
ensure adequate oversight is provided.

Acquisition Workforce Reduction. Report No. D-2000-088, “DoD
Acquisition Workforce Reduction Trends and Impacts,” February 29, 2000,
details how the acquisition workforce was reduced from 450,000 in FY 1990 to
230,000 in FY 1999. The workforce report discusses problems at 14 activities
resulting from a downsized workforce to include insufficient staff to manage
requirements, reduced scrutiny in reviewing acquisition actions, and increased
costs resulting from contracting for support versus using in-house support. The
problems in this report such as personnel turnover, excessive workload, and
poor contracting practices can, in part, be caused by reductions in the
workforce.
                                   16
    Further, the growth in contracting for professional, administrative and
    management support services can be attributed, in part, to reductions in the
    workforce.

Centers For Excellence
    We learned at two industry roundtables that industry accumulates knowledge
    about suppliers and develops specialists who are extensively trained in the
    market in which they buy and are thoroughly knowledgeable about the
    suppliers. For example, two multi-national companies explained how they
    learned to buy consulting services, which are similar to professional,
    administrative, and management support services in DoD. They reviewed
    contracts and determined that labor rates and travel were the cost drivers. They
    learned they were paying many different labor rates for the same category of
    labor in a city, depending on which subsidiary negotiated the contract. They
    established several people to become experts in buying consulting services and
    the people performed research and became experts in the field. The companies
    now require any subsidiary purchasing consulting services to go through their
    experts. Labor rates and travel costs have decreased, overall contract costs have
    been reduced 30 percent to 50 percent annually, and the level of service has
    remained constant or improved. Rather than rely on every contracting officer to
    be an expert on multiple market sectors or even multiple suppliers within one
    sector, DoD needs to establish centers of excellence with knowledgeable buyers
    for professional, administrative, and management support services.

Recommendations, Management Comments, and Audit
Response
    1. We recommend that the Deputy Under Secretary of Defense (Acquisition
    Reform):
           a. Develop a training course on planning and defining requirements
    and using historical contract for services data.

            b. Train contracting and program personnel on the award and
    administration of professional, administrative, and management support
    services emphasizing future prevention of the types of deficiencies noted in
    this report.

    2. We recommend that Acquisition Executives for the Army, Navy, and Air
    Force:

           a. Make all acquisition personnel aware of the problems found in
    independent Government cost estimates, technical evaluations, and price
    negotiation memorandums.




                                       17
       b. Evaluate the seven contracts identified that should have been
awarded as multiple-award contracts in accordance with the FAR and if
feasible, terminate or convert them to multiple-award contracts upon
completion.

       c. Establish centers of excellence with personnel that have
performed research and received training to become expert buyers of
professional, administrative, and management support services.

     d. Require personnel acquiring the professional, administrative, and
management support services to:

          1. Use the centers of excellence.
          2. Establish a time-phased plan with goals and performance
       measures that require the review of all professional, administrative,
       and management support services contracts.

          3. Convert, over 3 to 5 years, those repetitive cost-reimbursable
       contracts, or portions of contracts to fixed-price.

          4. Review the assignment of contract surveillance work for
       contracts for services and adjust assigned workload and staffing to
       resolve imbalances.

       e. Develop and implement work measures on contracts for
professional, administrative, and management support services, and
measure improvements through the options, modifications for additional
work, and future contracts.

Army Comments. The Army agreed and stated that a number of improvements
must be made in the award and administration of professional, administrative,
and management support services contracts. Specifically, the Army agreed to
encourage the migration of cost-type contracts to firm-fixed-price contracts and
the use of centers of excellence to improve processes for professional,
administrative, and management support services. The Army also distributed a
memorandum to its contracting activities identifying problems in the report.
The Army disagreed that its contract which was included in the report should
have been awarded under multiple-award procedures. The Army stated that the
contract was awarded before the law was passed mandating that it be a
multiple-award contract.

Audit Response. Although the Army concurred with the finding and took
commendable actions, its comments did not specifically address each
recommendation providing detailed actions planned or ongoing. We request the
Army address each recommendation in additional comments to the final report.
Regarding the Army’s comments that one of its contracts was not a candidate for
multiple-award procedures, we agree. Our final report was revised to delete
reference to the contract.


                                   18
Navy Comments. The Navy concurred with the finding and recommendations.
Specifically, the Navy stated that it provided copies of the draft audit report to
its contracting activities and would publicize the centers of excellence and
encourage members of the Navy acquisition community to use them. The Navy
also stated that it would evaluate the contracts mentioned in the report and
convert the appropriate ones to multiple-award contracts. The Navy also stated
that work measures and guidance should be developed at the DoD level.

Audit Response. The Navy’s comments were generally responsive and its
actions were commendable; however, the Navy did not specifically comment on
establishing its own goals and performance measures; converting contracts, or
parts of contracts to fixed-price over a 3 to 5 year period, and reviewing the
assignment of contract surveillance work for contracts for services and adjust
workload levels. We request that the Navy specifically address
recommendations 2.d.2., 2.d.3., and 2.d.4. in additional comments to the final
report.

Management Comments Required. The Deputy Under Secretary of Defense
(Acquisition Reform) and the Air Force did not comment on the draft report.
We request that the Deputy Under Secretary of Defense (Acquisition Reform)
and the Senior Acquisition Executive for the Air Force comment on the final
report by May 10, 2000.




                                    19
Appendix A. Audit Process

Scope and Methodology
    Our initial sample selected contracts for services valued at more than
    $20 million. Contracts were clustered in six service codes. Initial results
    showed a tendency to award contracts on a cost-reimbursable basis with some
    innovative use of firm-fixed-pricing. One contract was included based on an
    anonymous telephone call about underemployed staff. As a result, we refocused
    our audit to include contracting philosophies of various large dollar contracts for
    services at major contracting activities. We included large dollar contracting
    activities primarily focusing on 3 major services categories, Program
    Management/Support Services (R-408), Systems Engineering Services (R-414),
    and Engineering Technical Services (R-425), which account for approximately
    $8 billion annually. The contracts selected for review were located at five
    Army, five Navy and five Air Force activities. We are planning additional
    separate future audits at selected Defense agencies.

    We reviewed 105 contract actions, which included 46 contracts valued at
    $6.6 billion and 59 task orders valued at $142 million. The contract actions
    reviewed were dated from FY 1997 through FY 1998. We examined basic
    contracts, deliverables, statements of work, negotiation memorandums,
    independent Government cost estimates, technical evaluations, source selection
    decisions, cost analyses, and miscellaneous correspondence. We interviewed
    contract and program personnel at the audit sites.

    DoD-Wide Corporate Level Government Performance and Results Act
    (GPRA) Coverage. In response to the GPRA, the Secretary of Defense
    annually establishes DoD-wide corporate level goals, and performance
    measures. This report pertains to achievement of the following goal (s),
    subordinate performance goal(s), and performance measure(s):

    FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain future by
    pursuing a focused modernization effort that maintains U.S. qualitative
    superiority in key warfighting capabilities. Transform the force by exploiting
    the Revolution in Military Affairs, and reengineer the Department to achieve a
    21st century infrastructure. (00-DoD-2) FY 2000 Subordinate Performance
    Goal 2.3: Streamline the DoD infrastructure by redesigning the Department’s
    support structure and pursuing business practice reforms. FY 2000
    Performance Measure 2.3.1: Percentage of the DoD Budget Spent on
    Infrastructure. (00-D0D-2.3.1)

    DoD Functional Area Reform Goals. Most major DoD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.




                                        20
    Acquisition Functional Area. Objective: Internal reinvention. Goal:
    Eliminate layers of management by streamlining processes while reducing DoD
    acquisition-related workforce by 15 percent. (ACQ-3.1)

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Contract Management high-risk area.

    Audit Period, Standards and Locations. We performed this economy and
    efficiency audit from October 1998 through December 1999 in accordance with
    auditing standards issued by the Comptroller General of the United States, as
    implemented by the Inspector General, DoD. Accordingly, we included tests of
    management controls considered necessary. We did not evaluate the general
    and application controls of the DD-350 system that processes contract action
    data, although we relied on data produced by that system to conduct the audit.
    We did not evaluate the controls because it did not affect the results of the audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available upon request.

Management Control Program
    DoD Directive 5010.38 “Management Control Program,” as revised August 26,
    1996 requires DoD organizations to implement a comprehensive system of
    management controls that provide reasonable assurance that programs are
    operating as intended, and to evaluate the adequacy of the controls.

    Scope of Review of the Management Control Program. We reviewed
    management control procedures related to procurement of services in DoD.

    Adequacy of Management Controls. We identified material management
    control weaknesses as defined by DoD Directive 5010.38. Procurement and
    administration controls were inadequate on contracts for services. Controls did
    not ensure that tasks were properly planned to allow for requirements to be
    adequately determined and important documentation was lacking in contract
    files. In addition, controls were not adequate to ensure that surveillance was
    performed on contracts. Recommendations 1 and 2 will help correct the
    management control weaknesses. A copy of the report will be provided to the
    senior official responsible for management control within the Office of the
    Under Secretary of Defense Acquisition, Technology, and Logistics and the
    Military Departments.

    Adequacy of Management's Self-Evaluation. DoD contracting organizations
    did not specifically identify contracts for services as an assessable unit and,
    therefore, did not identify or report the material management control
    weaknesses identified by the audit.




                                         21
Appendix B. Prior Coverage
   Inspector General, DoD, Report No. D-2000-088, “DoD Acquisition
   Workforce Reduction Trends and Impacts,” February 29, 2000.

   Inspector General, DoD, Report No. 99-116, “DoD Use of Multiple Award
   Task Order Contracts,” April 2, 1999.

   Inspector General, DoD, Report No. 99-002, "Contracting for Defense Finance
   and Accounting Service Support," October 5, 1998.

   Inspector General, DoD, Report No. 96-032, “Time-and-Materials Contracts at
   the Defense Information Systems Agency,” December 1, 1995.




                                    22
 Appendix C. Summary of Acquisition and Administration Problems
                   Cursory      Inadequate                     Inadequate     Lack of Use of     Inadequate
                   Technical    Government        Lack of       Contract      Available Prior    Negotiation   Inadequate
Contract Action     Reviews    Cost Estimates   Cost Control   Surveillance      History        Memorandums    Competition


DACA87-98-C-0014                     X

F04611-92-C-0045      X              X                                              X                X
 Order 02P3R0008      X                                                                              X
 Order 02P3R0002      X                                                                              X
 Order 02P8R0033      X                                                                              X
 Order 02P3R0001      X                                                                              X

F08626-94-C-0026                     X               X             X                X
 Order 5117                          X                             X                X
 Order 5123                          X                             X                X

F08626-94-C-0054                                     X             X

F34601-93-C-0989                     X

F34601-95-C-0538                     X                             X                                 X

F34601-98-C-0125                     X                                                               X

F41608-98-C-0307                                                                    X                X

F41608-98-C-0532      X                                            X                                 X

N00024-94-C-5160                     X                             X                X


N00024-94-C-6429                     X                                              X                X

N00024-96-C-6409                     X                                              X

N00024-97-C-5173                     X                                              X                X

N00024-97-C-6411                     X                                              X

N68936-95-C-0094                                                                    X

N68936-98-C-0044                     X                                              X

DACA87-97-D-0029                     X
                    Cursory      Inadequate                     Inadequate     Lack of Use of     Inadequate
                    Technical    Government        Lack of       Contract      Available Prior    Negotiation   Inadequate
Contract Action      Reviews    Cost Estimates   Cost Control   Surveillance      History        Memorandums    Competition



DACA87-97-D-0037                                                                                                    X
 Order 8                                                                                                            X

DAHA90-94-D-0016       X              X                                              X                X             X
 Order 17              X              X                                              X                X
 Order 18                             X                                              X

F08626-96-D-0003                                      X             X                X
 Order VX-96-1015                                     X             X                X

F42620-97-D-0010                      X                             X                X                X
 Order 24                                             X             X
 Order 38                                                           X                X
 Order 39                                                           X
 Order 112                            X                             X                X

N00140-97-D-1636                      X                             X                X                X

DACA87-97-D-0038                      X                                              X                              X
 Order 17                                                                                                           X

DACA87-97-D-0040                                                                                                    X
 Order 20                                                                                                           X

DACA87-97-D-0039                                                                                                    X
 Order 39                                                                                                           X

DACA87-95-D-0021                      X

N65236-98-D-7706       X              X                             X                X                X             X
 Order 2               X              X               X             X                X                X             X
 Order 4               X              X               X             X                X                X             X
 Order 5               X              X               X             X                X                X             X

N65236-98-D-7707       X              X                             X                X                X             X
 Order 2               X              X               X             X                X                X
 Order 16              X              X                             X                X                X             X
 Order 17              X              X                             X                X                X             X

N65236-96-D-3700       X              X                             X                X                X
 Order 28              X                              X             X                X                X

N65236-97-A-7906                                                    X
                   Cursory      Inadequate                     Inadequate     Lack of Use of     Inadequate
                   Technical    Government        Lack of       Contract      Available Prior    Negotiation   Inadequate
Contract Action     Reviews    Cost Estimates   Cost Control   Surveillance      History        Memorandums    Competition



N65236-97-D-3810                     X                                              X

N68936-98-D-0038      X              X                             X                X                X
 Order 3              X              X                             X                                 X
 Order 4              X              X                             X                X                X

N68936-97-D-0297      X              X                             X                X                X
 Order 1              X              X                             X                X                X

F41608-98-D-0566      X              X                             X                X                X
 Order 1                             X               X             X                X
 Order 2              X              X                             X                                 X

F41608-98-D-1044      X              X               X             X                                 X             X
 Order 2              X              X                             X                                 X
 Order 3                             X                             X                                 X
 Order 4              X              X                             X                                 X
 Order 5              X              X                             X                                 X
 Order 7              X              X               X             X                                 X
 Order 16             X              X               X             X                                 X
 Order 24             X              X               X             X                                 X
 Order 0902           X              X                             X                                 X

DAAB07-94-D-M503      X              X                             X                                 X
 Order 23             X              X                                                               X
 Order 27             X              X                                                               X
 Order 40                            X                             X                                 X

DASW01-95-D-0025      X              X                             X                X                X             X
 Order 67             X              X               X             X                X                X             X
 Order 139                           X                             X                                 X             X

DAAB07-96-C-A760      X              X                             X                X                X

DAAB07-96-D-F308      X              X                             X                X                X
 Order 5              X              X               X             X                X                X
 Order 8              X              X               X             X                X                X

DAAH01-97-C-0002      X              X                             X                X                X

DAAH01-97-C-0125      X              X                             X                X                X

DAAH01-97-D-0049                                                   X                                 X
                           Cursory         Inadequate                        Inadequate     Lack of Use of     Inadequate
                           Technical       Government         Lack of         Contract      Available Prior    Negotiation   Inadequate
Contract Action             Reviews       Cost Estimates    Cost Control     Surveillance      History        Memorandums    Competition


 Order 2                                                         X               X                                 X


DAAB07-97-C-C605              X                 X                                                 X                X
 Order 16                     X                 X                                                 X                X
 Order 25                     X                 X                                                 X

DAAH01-98-C-0157                                X                                                 X

DAAH01-98-C-0201                                X                                                                  X

DAAB07-98-D-H751              X                 X                                                 X                X             X
 Order 2                      X                 X                X                                X                X             X
 Order 3                      X                 X                                                                  X             X
 Order 4                      X                 X                                                 X                X             X
 Order 6                      X                 X                X                                                 X             X
 Order 7                      X                 X                                                                  X             X
 Order 9                      X                 X                                                                  X             X
 Order 10                     X                 X                                                                  X             X
 Order 13                     X                 X                                                 X                X             X
 Order 14                     X                 X                                                                  X             X
 Order 16                     X                 X                                                 X                X             X
 Order 17                     X                 X                                                 X                              X
 Order 18                     X                 X                                                 X                X             X

Totals:                       60               81                21              56               58               71            33*




 *
     We examined 30 task orders in addition to the 33 task orders identified here to determine if contractors had a fair opportunity to be considered for
     multiple-awards.
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Deputy Under Secretary of Defense (Acquisition Reform)
    Director, Acquisition Education, Training and Career Development
  Director, Defense Procurement
  Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Audit Agency
Director, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
Director, Defense Logistics Agency
Director, National Security Agency
   Inspector General, National Security Agency
Inspector General, Defense Intelligence Agency




                                          27
Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Office of Federal Procurement Policy
General Accounting Office
  National Security and International Affairs Division
      Technical Information Center

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                          28
               Department of the Army Comments
Final Report
 Reference




Revised




                                   29
30
31
32
33
Department of the Navy Comments




                    34
35
36
37
Audit Team Members
   The Contract Management Directorate, Office of the Assistant Inspector General
   for Auditing, DoD, prepared this report.

   Paul J. Granetto
   Terry L. McKinney
   Bruce A. Burton
   Steven I. Case
   Billy J. McCain
   LaNita C. Matthews
   Robert E. Bender
   John A Seger
   Chuck J. Chin
   Chrispian M. Brake
   Shelly M. Newton
   David P. Goodykoontz




                                     38
